         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Management Letter on the Audit of
the Department of Energy's
Consolidated Financial Statements
for Fiscal Year 2012




OAS-FS-13-08                        January 2013
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006

                                       MANAGEMENT LETTER


December 17, 2012

Mr. Gregory Friedman
Inspector General
U.S. Department of Energy
1000 Independence Avenue, S.W., Room 5D-039
Washington, DC 20585

Dear Mr. Friedman:

We have audited the consolidated financial statements and special-purpose financial statements of the
United States Department of Energy (Department or DOE) as of and for the year ended September 30,
2012, and have issued our reports thereon dated November 14, 2012. In planning and performing our
audit of the consolidated financial statements and special-purpose financial statements, in accordance
with auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States; and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
Federal Financial Statements, as amended; we considered internal control over financial reporting
(internal control) as a basis for designing our auditing procedures for the purpose of expressing our
opinions on the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Department’s internal control. Accordingly, we do not express an opinion on the
effectiveness of the Department’s internal control.
Our consideration of internal control was for the limited purpose described in the preceding paragraph
and was not designed to identify all deficiencies in internal control that might be significant
deficiencies or material weaknesses and therefore, there can be no assurance that all deficiencies,
significant deficiencies or material weaknesses have been identified. However, as discussed below, and
as more fully described in our Independent Auditors’ Report, which is included in the financial results
section of the Department’s Fiscal Year 2012 Agency Financial Report, we identified certain
deficiencies in internal control related to information technology (IT) that we consider to be a
significant deficiency.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a
combination of deficiencies, in internal control, such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented or detected and
corrected on a timely basis. A significant deficiency is a deficiency, or a combination of deficiencies,
in internal control that is less severe than a material weakness, yet important enough to merit attention
by those charged with governance. We consider the following deficiency in the Department’s internal
control to be a significant deficiency:
   •   Unclassified network and information systems security - We noted network vulnerabilities
       and weaknesses in access and other security controls in the Department’s unclassified computer


                               KPMG LLP is a Delaware limited liability partnership,
                                                              i
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
       information systems. The identified weaknesses and vulnerabilities increase the risk that
       malicious destruction or alteration of data or unauthorized processing could occur. The
       Department should fully implement policies and procedures to improve its network and
       information systems security.
We will issue a separate management letter addressing IT control deficiencies, including those matters
we consider collectively to be a significant deficiency.
Although not considered to be significant deficiencies or material weaknesses, we noted certain matters
involving internal controls and other operational matters that are presented in Exhibit A for your
consideration. These comments and recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve the Department’s internal control or
result in other operating efficiencies.
Exhibit B presents the status of prior year management letter comments.
Management’s reaction to our comments and recommendations has not been subjected to the auditing
procedures applied in the audit of the consolidated financial statements and, accordingly, we express
no opinion on it.
We appreciate the courteous and professional assistance that Department personnel extended to us
during our audits. We would be pleased to discuss these comments and recommendations with you at
any time.
This report is intended solely for the information and use of the United States Department of Energy
and its Office of Inspector General and is not intended to be and should not be used by anyone other
than these specified parties.




                                                  ii
                                          Management Letter
                            Index to Exhibit A and Listing of Other Exhibits

Comments Related to Internal Controls and Other Operational Matters
(with parenthetical references to findings and recommendations issued
during the engagement)                                                               Exhibit A

Closing Package

        Finding 1:    Lack of Sufficient Review of Closing Package
                      Submission (12-HQ-CP-01)                                            A.1

Credit Reform/Loan Programs

        Finding 2:    Timely Recording of Disbursements (12-HQ-L-01)                      A.1

Environmental Liabilities

        Finding 3:    Double Counting of Long-Term Stewardship Liabilities
                      (12-HQ-EL-01)                                                       A.2

Environmental Liabilities for Active Facilities

        Finding 4:    Inaccuracies in the Active Facilities Liability
                      (12-CHF-AF-01)                                                      A.3

        Finding 5:    Incorrect AFDCS Model Code (12-NS1-AF-01)                           A.4

        Finding 6:    Errors in the Active and Surplus Facilities Liability
                      (12-NRLFO-AF-01)                                                    A.4

        Finding 7:    Errors in the Prior Period Asbestos Liability
                      (12-HQ-AF-01)                                                       A.5

        Finding 8:    Inaccuracies in the Active Facilities Data Collection System
                      (12-BNL-A-01 – formerly 11-BNL-A-01)                                A.6

Financial Reporting

        Finding 9:    Misclassification of Debt Related to the Credit Reform
                      Program (12-HQ-FR-01)                                               A.6

Human Resources

        Finding 10: Pension Asset Classification Levels (12-INL-P-01)                     A.7

        Finding 11: Census Data Review (12-LBNL-P-01)                                     A.8




                                                     i
Inventory

       Finding 12: Incorrectly Writing Off Component Parts Inventory
                   (12-Y12-NM-01)                                               A.8

       Finding 13: Incorrect Nuclear Materials Allowance (12-NNSA-NM-01)        A.9

Procurement

       Finding 14: Accounts Payable – Invalid Accounts Payable Balances
                   (12-XN9-PRO-01)                                              A.9

       Finding 15: Disbursements (12-NS1-PRO-01)                               A.10

Property, Plant, and Equipment (PP&E)

       Finding 16: Property, Plant, and Equipment Capitalization and
                   Depreciation (12-NS1-F-01)                                  A.10

Status of Prior Year Findings                                              Exhibit B

Acronyms                                                                   Exhibit C




                                                ii
                                                                                                 Exhibit A


                                              COMMENTS

Closing Package

Finding 1:            Lack of Sufficient Review of Closing Package Submission (12-HQ-CP-01)

During the preparation and review of the Governmentwide Financial Report System (GFRS) footnotes as
part of the Department’s Fiscal Year (FY) 2011 Closing Package submission, the Department overlooked
an amount entered in the wrong column of Line 31 (All Other Earmarked Funds) for Note 22 (Earmarked
Funds). As a result of this oversight, the Department’s FY 2011 Closing Package included a
misclassification in Line 31 in the GFRS FR Notes Report for Note 22 (Earmarked Funds), Section E
(Revenue, Financing, Expenses, and Other – Current Year). Specifically, the "Individual Income taxes
and payroll tax withhold" column incorrectly included $3.278 billion that should have appeared in the
"Other taxes and receipts" column. The Department of the Treasury, Financial Management Service
(FMS), brought this error to the Department of Energy's attention subsequent to the submission of the FY
2011 Closing Package.

Recommendation:

1. We recommend that the Director, Office of Financial Control and Reporting (OFCR), strengthen the
    internal controls over the Closing Package submission process to mitigate the risk of errors being
    made in preparing the GFRS footnotes and not being identified and corrected prior to submission to
    the Department of Treasury.

Management Reaction:

Management concurs with the recommendation. Management noted that it planned to perform a footnote
balance change analysis for the FY 2012 GFRS footnotes prior to submission to Treasury. Management
also plans to improve its written procedures for preparing the GFRS during FY 2013.

Credit Reform/Loan Program

Finding 2:            Timely Recording of Disbursements (12-HQ-L-01)

The Loan Programs Office (LPO) authorized the 3rd party lender who is responsible for servicing certain
loans to make two disbursements in February 2012 totaling $186 million. In approving these
disbursements, LPO did not follow the established process and notify OFCR when it approved the
February 2012 disbursements. Additionally, the Department did not obtain 3rd Party Lender Reports from
the 3rd party lender responsible for servicing the loans in March 2012 and, therefore, did not reconcile the
loan activity reported by the 3rd party lender to the Department's accounting records in accordance with
established procedure. As a result, OFCR did not record these disbursements until July 2012 after
receiving notification of these disbursements via the 3rd Party Lender Report. Accordingly, the
Department understated its Principal of Guaranteed Loans, Face Value balance by $186 million as of June
30, 2012.




                                                    A.1
                                                                                                  Exhibit A


Recommendation:

2. We recommend that the Acting Executive Director, LPO, and Director, OFCR develop and
    implement policies and procedures to ensure that:

    a. OFCR receives notification of Financial Institution Partnership Program (FIPP) disbursements
       timely; and

    b. The Department obtains and reconciles its accounting records to 3rd Party Lender Reports timely.

Management Reaction:

Management concurs with the recommendations. Management noted that, during FY 2012, the LPO
improved its procedures related to disbursements and the systems that support its operations.
Management noted that these improvements and the corrective actions taken as a result of this finding
serve as a system of checks and balances to ensure that the LPO and OFCR maintain the most accurate
and current disbursement information for each FIPP transaction and that the OFCR is able to reconcile
accounting records to 3rd Party Lender Reports. To specifically address Recommendation 2, above:

    a. Management has revised the disbursement process (Portfolio Management Division Policy 413.1,
       Disbursement Request Evaluation Process) to include automatic email notification to OFCR once
       the LPO approves an official Disbursement Request.

    b. Management has further enhanced the disbursement process to include OFCR notification once
       the Administrative Agent/lending institution processes a FIPP disbursement.

    c. Management noted that the LPO and OFCR will continue to receive and process Quarterly
       Accounting Reports from the respective Administrative Agents/lending institutions that outline
       the FIPP disbursements from the previous quarter.

Environmental Liabilities

Background: The Department has several categories of environmental liabilities, including the Office of
Environmental Management (EM) program’s baseline estimates for the cleanup of contaminated soil,
groundwater, and facilities, the treatment, storage, and disposal of wastes, and the management of nuclear
materials generated by the nuclear weapons complex during the Cold War; the Office of Legacy
Management (LM) life-cycle baselines for long-term surveillance and maintenance (LTS&M) of DOE
sites and other sites involved in the nuclear weapons program where remediation measures have been
substantially completed; the stabilization, deactivation, and decommissioning of active facilities; and
restructured environmental liabilities covering cleanup projects and facilities that are not addressed in the
EM or active facilities liabilities.

Finding 3:             Double Counting of Long-Term Stewardship Liabilities (12-HQ-EL-01)

During FY 2012, cognizance of LTS&M operations at the Mound Site in Miamisburg, Ohio transferred
from EM to LM. LM recorded an LTS&M liability for Mound at the time of the transfer; however, EM
did not remove the liability from its books. EM did not have controls to ensure that it removes a site from
the long-term stewardship (LTS) liability once it has been transferred to LM in a timely manner. As a
result, the Department overstated their liability by $42 million. The Department corrected the error for its
September 30, 2012 financial statements.



                                                    A.2
                                                                                                  Exhibit A



Recommendation:

3. We recommend that:

   a. The Director, Office of Strategic Planning & Analysis, implement procedures to identify and
      remove sites from Integrated Planning, Accountability, and Budgeting System that have
      transferred to Legacy Management in a timely manner.

   b. The Director, OFCR, implement procedures to perform a reconciliation of the LTS and LTS&M
      sites to ensure the liability is not misstated due to double counting.

Management Reaction:

Management concurs with the recommendations. Management plans to supplement its annual
environmental liability guidance to define the specific triggers for closing LTS projects in the Integrated
Planning, Accountability, and Budgeting System (IPABS) based on the official transfer of activities to
LM and the availability of non-EM funding. Additionally, management plans to implement a review
process to ensure that duplication does not exist in the environmental liability for sites transferred to LM.

Environmental Liabilities for Active Facilities

Background: The Department’s liability for remediation of active facilities includes anticipated
remediation costs for active and surplus facilities managed by the Department’s ongoing program
operations, which will ultimately require stabilization, deactivation, and decommissioning. The estimated
costs are largely based on a cost-estimating model, which extrapolates stabilization, deactivation, and
decommissioning costs from facilities included in EM’s baseline estimates to those active and surplus
facilities with similar characteristics owned by other (non-EM) programs. The Department’s
methodology for calculating an environmental liability estimate for active facilities relies on a web-based
system managed by the Headquarters Office of the CFO and operated by a contractor. This system,
known as the Active Facilities Data Collection System (AFDCS), relies on field site personnel to input an
appropriate cost model code, square footage, and footprint for each building, from which the liability is
calculated. Data collection for each facility includes the square footage or gallons and the assignment to
one of 15 facility contamination model codes. In addition, AFDCS collects data regarding asbestos
contamination in order to calculate a liability for affected facilities that would otherwise not require
remediation. Field site personnel review and make necessary revisions to the facility data each year before
certifying the data in AFDCS. A limited number of sites use other appropriate cost-modeled estimates or
site-specific estimates.

Finding 4:             Inaccuracies in the Active Facilities Liability (12-CHF-AF-01)

Our interim review of a statistically selected sample of 23 facilities and structures from the Fermi
National Accelerator Laboratory’s (Fermilab) FY 2012 Active Facilities Data Collection System
(AFDCS) population disclosed that Fermilab incorrectly recorded the footprint for three facilities and
assigned an incorrect model type to one facility. Additionally, we noted that Fermilab’s active facilities
liability included a liability for two facilities, even though the only contamination related to these
facilities is contained in the soil underneath these facilities and already accounted for in the site’s
contaminated media liability estimate. As a result of these errors, Fermilab understated the interim active
facilities liability by $125.5 million as of June 30, 2012. Site personnel corrected the errors prior to the
final liability calculation as of September 30, 2012.



                                                    A.3
                                                                                                    Exhibit A



Recommendation:

4. We recommend that the Manager, Fermi Site Office (FSO), direct Fermilab to implement policies and
    procedures to ensure employees and contractors are following active facility guidance, specifically
    relating to model code categories, facility size, and exclusion of contaminated soil from the active
    facilities liability estimate, and to ensure that site personnel perform an adequate review of the active
    facilities liability estimate.

Management Reaction:

Management concurs with this recommendation. Management noted that Fermilab is currently in the
process of benchmarking best practices with the Argonne National Laboratory to better strengthen their
internal processes and plans to complete revision to the site’s policies and procedures in order to
incorporate the recommendations above by December 31, 2012. Additionally, management noted that
FSO will conduct a review of the revised policies, procedures, and activities being performed, in
partnership with the Laboratory, to ensure effective implementation is achieved.

Finding 5:             Incorrect AFDCS Model Code (12-NS1-AF-01)

Our interim review of 30 facilities and structures disclosed that the Los Alamos National Laboratory
(LANL) assigned the incorrect model type to one facility. The miscoding of the facility resulted from a
lack of sufficient review by the facility manager, or subject matter expert assigned to review the model
coding. As a result of this error, LANL understated the interim active facilities liability estimate by $1.4
million as of June 30, 2012. Site personnel corrected the error prior to the final liability calculation as of
September 30, 2012.

Recommendation:

5. We recommend that the National Nuclear Security Administration (NNSA) Field Chief Financial
    Officer (CFO), in conjunction with the Manager, Los Alamos Site Office (LASO), direct LANL to
    develop and implement policies and procedures to ensure that the employees responsible for
    assigning model types to facilities perform sufficient review of both the historical and current use of
    the facilities, as well as the results of all surveys, in order to assign the proper model codes.

Management Reaction:

Management concurs with the recommendation.

Finding 6:             Errors in the Active and Surplus Facilities Liability (12-NRLFO-AF-01)

Our interim review of 48 facilities and structures as of June 30, 2012 identified errors in 23 items.
Specifically, our review disclosed that the Naval Reactors Laboratory Field Office (NRLFO) incorrectly
recorded an active and surplus facilities liability for 13 facilities where no contamination is known or
believed to exist; did not update the liability estimates related to two facilities based on current, available
information; had not maintained supporting documentation for the disposal rates that served as the bases
for components of an estimate; and did not have readily available supporting documentation for one other
estimate. Additionally, the liability calculations for an additional six facilities and structures contained
miscalculations including the use of incorrect facility square footages, estimates that were not reduced for
actual costs incurred, the inclusion of unsupported adjustments, and estimates for which escalation had
not been properly applied. As part of our follow-up procedures at year-end, we noted that NRLFO did


                                                     A.4
                                                                                                     Exhibit A


not record an active and surplus facilities liability for six solid waste management units and areas of
concern that had been identified as requiring a liability by a FY 2012 internal audit by Bechtel Marine
Propulsion Corporation (BMPC), NRLFO’s prime contractor. These errors were the result of a number of
items, including ambiguities in the Department’s environmental liability guidance regarding the accrual
of a liability for uncontaminated facilities and deficiencies in NRLFO’s review of its active facilities
liability. As a result of these errors, NRLFO recorded liability increases of $81.3 million and liability
decreases of $74.2 million.

Recommendation:

6. We recommend that the Office of the Chief Financial Officer clarify its environmental liability
   guidance in accordance with Federal Accounting Standards Advisory Board Technical Release No. 2,
   Determining Probably and Reasonably Estimable for Environmental Liabilities in the Federal
   Government, to state that environmental liabilities are not probable and should not be recorded unless
   there is likely contamination.

    Furthermore, we recommend that the Manager, NRLFO, direct BMPC personnel to:

    a. Implement policies and procedures requiring BMPC personnel to update liabilities based upon
        current available information and verify that the estimates are free of mathematical errors; and

    b. Implement policies and procedures to ensure that historical documentation supporting the
        calculation of liability estimates is maintained, readily available and sufficiently detailed.

Management Reaction:

Office of the Chief Financial Officer management concurs with the first recommendation. Management
noted that it plans to clarify its environmental liability guidance to preclude uncontaminated facilities
from inclusion in the Department’s environmental liability by March 31, 2013.

NRLFO management generally concurs with the second recommendation and concurs with the third
recommendation. Management noted that it has already begun to take action to address the issues that
resulted in errors in NRLFO’s active and surplus facilities liability in order to avoid repeating similar
issues in the June 30, 2013 environmental liability estimate. Management further noted that, although it
does not deem the lack of historical documentation supporting the calculation of liability estimates to be a
systemic issue, it will consider this issue when implementing corrective actions related to this finding.
Management also noted the size of the errors in relation to the total NRLFO active facilities liability of
$5.7 billion.

Finding 7:             Errors in the Prior Period Asbestos Liability (12-HQ-AF-01)

During FY 2011, the Department implemented a separate cost model for estimating the cost to remediate
asbestos containing material for "no liability" facilities listed in AFDCS (i.e., facilities not otherwise
contaminated with hazardous or radioactive material). As part of the process for updating the
Department’s liability for asbestos remediation, OFCR is responsible for overseeing the field site updates
to AFDCS and for calculating the asbestos liability. As part of its internal reviews during FY 2012,
OFCR determined that, as a result of a programming error, the AFDCS cost model did not properly
calculate the active facilities liability related to asbestos for certain facilities during FY 2011. As a result
of this error, the Department understated the active facilities liability estimate by $172.7 million as of




                                                      A.5
                                                                                                   Exhibit A


September 30, 2011. The Department corrected the error prior to FY 2012 liability update and properly
calculated the active facilities liability related to asbestos as of June 30, 2012.

Recommendation:

7. We recommend that the Director, OFCR, perform internal reviews of the AFDCS asbestos cost model
    to ensure accurate calculation of the Department's asbestos liability.

Management Reaction:

Management concurs with the recommendation. Management plans to test all of the components of
AFDCS, including the asbestos model, during FY 2013 to ensure that the model works as intended and
generates accurate liability estimates.

Finding 8:      Inaccuracies in the Active Facilities Data Collection System (12-BNL-A-01 – formerly
                11-BNL-A-01)

In FY 2011, we reported that BNL assigned incorrect model codes to a total of five facilities from our
sample of 45 facilities. These errors resulted in overstatement of BNL’s active facilities liability of $132.9
million as of June 30, 2012.

In FY 2012, our review of a sample of 45 facilities and structures at BNL identified errors in three
facilities, including the assignment of an incorrect model code to Facility 941 (i.e., the Power Supply and
Support Building), the inaccurate measurement of the square footage of Facility 820B (i.e, the
Accelerator Test Facility Storage Facility), and the inclusion as a stand-alone structure of a heating
system that should have been accounted for as an improvement to another structure. These errors resulted
in an overstatement of BNL’s active facilities liability of $1.2 million as of June 30, 2012. Therefore, this
finding remains open.

Recommendation:

8. We continue to recommend that the Manager, Brookhaven Site Office, direct BNL to ensure that
   employees and contractors are appropriately following active facilities guidance, specifically as it
   relates to model code categories and the measurement of facility square footages, and performing
   appropriate internal reviews of the contractor-prepared active facilities liability estimates.

Management Reaction:

Management concurs with the recommendations. Management noted that, while the Brookhaven Site
Office has noted an improvement with the reporting of the active facilities liability, it is evident that
additional corrective actions are required. Management will direct Brookhaven Science Associates to
implement additional policies and procedures to ensure that employees and contractors are appropriately
following active facilities liability guidance and performing appropriate internal reviews of the contractor-
prepared active facilities liability estimates.

Financial Reporting

Finding 9:             Misclassification of Debt Related to the Credit Reform Program (12-HQ-FR-01)

OFCR did not perform an adequate review of the Agency Financial Report (AFR) footnotes related to the
Department's credit reform program as of September 30, 2011 and 2010, in order to ensure the proper


                                                     A.6
                                                                                                 Exhibit A


presentation of financial information related to the Department's credit reform program in accordance
with Office of Management and Budget (OMB) Circular No. A-136, Financial Reporting Requirements.
The Department misclassified the portion of its debt related to its direct loan and 100 percent loan
guarantee programs as not covered by budgetary resources as of September 30, 2011 and 2010. This
misclassification of debt related to the Department's direct loan and loan guarantee programs resulted in
the overstatement of the Department's total liabilities not covered by budgetary resources by $6.921
million and $2.931 million as of September 30, 2011 and 2010, respectively. The Department identified
and corrected the misclassification for FY 2012 reporting.

Recommendation:

9. We recommend that the Director, OFCR, develop and implement policies and procedures to ensure
    that OFCR personnel perform a thorough review of the Department's annual AFR in order to ensure
    that the Department's financial position and results are properly presented in accordance with OMB
    Circular No. A-136.

Management Reaction:

Management generally concurs with the recommendation. Management noted that the misclassification of
debt related to direct loan and loan guarantees as not covered by budgetary resources was an error
identified by the DOE loan accountant during FY 2012 and that corrective action has already been taken
to classify and report this debt correctly. Management stated that OFCR will evaluate the need for
additional controls/procedures regarding classification of funded and unfunded liabilities as part of its FY
2013 OMB Circular No. A-123, Management’s Responsibility for Internal Control, evaluations.

Human Resources

Finding 10:           Pension Asset Classification Levels (12-INL-P-01)

INL’s management and operating (M&O) contractor, Battelle Energy Alliance, LLC (BEA), relies on
third parties to determine the classification of pension plan assets within the fair value hierarchy for its
pension plan disclosures and then performs a review over these classifications. However, our FY 2012
review determined that BEA was unable to provide documentation of such review and, therefore, was
unable to demonstrate that the financial reporting process for determining the fair value measurements
and disclosures is performed at an appropriate level of precision to detect and correct errors, if any. As
such, there is a higher risk that the fair value measurement of the Department's pension assets within the
different levels of the fair value hierarchy might be misclassified in the Department's financial statement
footnote disclosures.

Recommendation:

10. We recommend that the Manager, Idaho Operations Office, direct INL BEA personnel to document
    their review to demonstrate that financial reporting processes are in place to evaluate the accuracy of
    the pension plan asset classification level of the fair value hierarchy provided by the trustee.

Management Reaction:

Management concurs with the recommendation. Management noted that it has implemented procedures
to document future management reviews.




                                                    A.7
                                                                                                  Exhibit A


Finding 11:           Census Data Review (12-LBNL-P-01)

Lawrence Berkeley National Laboratory (LBNL) has one pension and one post-retirement benefit (PRB)
plan that is managed by the University of California Retirement Plan/University of California Office of
the President (UCOP). As part of the process for calculating the pension and PRB liability, UCOP
provides a census data file to their actuary. In performing this process, UCOP did not follow the guidance
established by the Office of Finance and Accounting (OFA) regarding having an internal control structure
in place to ensure that management reviews the census data before submission to the actuary for accuracy
and completeness. UCOP relied on the actuary to perform periodic reviews of the census data file to
ensure all requested data from UCOP was complete. As a result, there is a higher risk that the census data
provided to the actuary could be incomplete or inaccurate data, which could cause the actuarially
determined pension and PRB estimates to be misstated.

Recommendation:

11. We recommend that Manager, Berkeley Site Office, direct UCOP personnel to ensure guidance issued
    by OFA is followed regarding having an internal control structure in place to ensure the census data used
    to perform the pension and PRB accounting calculation ties back to the payroll census data.

Management Reaction:

Management concurs with the recommendation. Management noted that it will direct LBNL UCOP to
develop a Corrective Action Plan (CAP) by October 31, 2012 to ensure that guidance issued by OFA
regarding having an internal control structure to ensure the census data used to perform the pension and
PRB accounting calculations ties back to the payroll census data is followed.

Inventory

Finding 12:           Incorrectly Writing Off Component Parts Inventory (12-Y12-NM-01)

In prior years, the Y-12 National Security Complex (Y-12) has misinterpreted the quantities of inventory
set forth in annual programmatic guidance, which can vary from year-to-year and does not necessarily
indicate a permanent decline in the value of inventory, to be instruction for accounting entries that must
be recorded during a given fiscal year. As a result of these misinterpretations, Y-12 wrote off and wrote
on component part nuclear materials inventory from the Departmental Inventory Management System
(DIMS) based on annual programmatic guidance that was distributed to the sites by NNSA Headquarters.
As a result, inventory was understated by $680 million as of September 30, 2011. An adjustment of $680
million related to the prior period error was recorded in DIMS for the fiscal year ending September 30,
2012 to correct the accounting error.

Recommendation:

12. We recommend that the NNSA CFO, distribute updated accounting guidance to the field sites
    instructing them to reduce the carrying value of inventory for only component part inventory units
    identified as having a permanent decline in value.

Management Reaction:

Management concurs with the recommendation. Management plans to issue guidance to the field sites by
December 2012.



                                                    A.8
                                                                                                Exhibit A


Finding 13:           Incorrect Nuclear Materials Allowance (12-NNSA-NM-01)

By way of multiple Secretarial declarations, the last of which was made in September 2007 for 9 metric
tons (MT), 47.2 MT of weapons-grade plutonium has been declared excess to national security needs. As
of September 30, 2011, only 33.4 MT had been reserved for in the classified allowance account. In FY
2012, Pantex Plant recorded an allowance for the majority of the 9 MT declared in September 2007, the
sources of which were specifically identified at that site. As a result of this delay in recording an
allowance, the Department overstated inventory by an amount, which is classified, but that is not material
to the Department's financial statements as of September 30, 2012. The Department corrected the amount
as of September 30, 2012.

Recommendation:

13. We recommend that the NNSA CFO:

    a. Ensure that Secretarial declarations and other Departmental guidance impacting the nuclear
       materials area are effectively communicated to accounting personnel who will need this
       information; and

    b. Require accounting personnel to ensure that programmatic documents are not used as the sole
       basis for making accounting entries for nuclear materials. Current guidance that instructs
       otherwise should be revised.

Management Reaction:

Management concurs with the recommendations. Management noted that NNSA accounting personnel
will communicate quarterly with the Office of Nuclear Material Integration to identify any changes in the
quantities of nuclear materials declared excess to national security needs.

Procurement

Finding 14:           Accounts Payable – Invalid Accounts Payable Balances (12-XN9-PRO-01)

Our tests of 105 accounts payable balances indicated that the Energy Finance and Accounting Service
Center (EFASC) did not correctly cancel two balances as of June 30, 2012. Specifically, we noted:

   a. One purchase order (PO) with a credit balance of $3,500 related to an advance for an employee's
      travel cost for a permanent change of station (PCS). In recording this advance, the Department
      incorrectly entered the transaction codes in the Standard Accounting and Reporting System
      (STARS) and, as a result, STARS did not apply the prepaid amounts to offset the voucher claim
      amounts when paid, leaving a balance in standard general ledger (SGL) account 2110, accounts
      payable.

   b. One PO with a credit balance of $229.07 related to an invoice for an employee's PCS. Taxes were
      withheld on the invoice and later reimbursed to the employee on a separate invoice. However, the
      unpaid amount on the original invoice was never fully cancelled, leaving a balance in SGL 2110,
      accounts payable.

As a result these errors, EFASC overstated the accounts payable balance by $3,729.07 at June 30, 2012.




                                                   A.9
                                                                                                  Exhibit A


Recommendation:

14. We recommend that the Director, OFA, direct EFASC to implement policies and procedures to
    ensure that errors in transaction codes and payment posting entries are identified and corrected.

Management Reaction:

Management concurs with the recommendation. Management noted that CAPs will be developed to
ensure errors in transaction codes and payment posting entries are identified and corrected as they occur
or at the end of each month. Additionally, management noted that a reconciliation report will be
completed on a monthly basis to ensure the Department's liabilities for PCS relocation are accurate and
liquidated in a timely manner.

Finding 15:           Disbursements (12-NS1-PRO-01)

Our review of 25 disbursements disclosed that LANL did not remit timely payment for one of the
disbursements. LANL misplaced the invoice for this disbursement and did not discover the lost invoice
until the supplier followed up with LANL regarding payment. As a result of this delay, the associated
expense and liability accounts were misstated as of the financial statement date. Additionally, there is a
risk that penalty for late payments might be incurred.

Recommendation:

15. We recommend that the NNSA Field CFO, in conjunction with the Manager, LASO, direct LANL to
    implement policies and procedures and/or ensure that existing policies and procedures are followed to
    ensure invoices are collected timely and paid within the stated contract terms and in the proper fiscal
    year.

Management Reaction:

Management concurs with the recommendation. Management noted that the NNSA Field CFO and LASO
Manager will direct LANL to update and follow policies and procedures for timely collection and
payment of invoices within stated contract terms.

Property, Plant, and Equipment

Finding 16:           Property, Plant, and Equipment Capitalization and Depreciation (12-NS1-F-01)

Our review of a sample of 43 Property, Plant, and Equipment (PP&E) asset additions for the fiscal year
ending September 30, 2012, identified the following conditions:

   a. LANL used the placed in-service date of the original building as the basis for calculating
      depreciation of a capitalized refurbishment to the building, rather than calculating depreciation
      over the estimated three-year useful life of the addition. The building was fully depreciated, which
      resulted in the full depreciation of the addition in the current year.

   b. LANL capitalized a security system upgrade to a building and used the original placed in-service
      date of the building as the basis for calculating depreciation, rather than calculating depreciation
      over the remaining useful life of the building.




                                                   A.10
                                                                                                       Exhibit A


These errors resulted from policies and procedures that currently do not clearly address the proper
capitalization of betterments added to fully depreciated capital assets, as well as departures from current
policies and procedures regarding the use of proper placed in-service dates. As a result of these errors,
the net book value of LANL's PP&E was understated by $6,278,886 as of September 30, 2012.

Recommendation:

16. We recommend that the Director, Office of Financial Risk, Policy and Controls, enhance existing
    policies and procedures to determine the appropriate useful life for betterments associated with, or
    attached to, fully or near fully depreciated assets that will provide future utility to the Department.

    Additionally, we recommend that the NNSA Field CFO, in conjunction with the Manager, LASO,
    train and remind employees of the existing policies and procedures related to recording the actual in-
    service date for capitalized assets and recording the appropriate useful life for additions to currently
    existing assets.

Management Reaction:

Office of Financial Risk, Policy, and Controls management generally concurs with the first
recommendation. Management noted that it will take the recommendation into consideration as part of
the Office of Financial Risk, Policy, and Controls ongoing project to revise Chapter 10 of the Financial
Management Handbook, Property, Plant, and Equipment.

NNSA management concurs with the second recommendation. Management noted that it will issue the
Office of Financial Risk, Policy, and Controls’ enhanced policy to NNSA’s integrated contractors when
received and provide training to integrated contractors regarding the enhanced policy.




                                                      A.11
                                                                                        Exhibit B


                                STATUS OF PRIOR YEAR FINDINGS

Prior Year Findings Related to Internal Controls and Other
Operational Matters (with parenthetical references to findings)    Status at September 30, 2012

Budget

         1. Timely Recording of Obligations (11-SR-B-01)           Closed in FY 2012

         2. Incorrect Costed Obligations and UDO Balances          Closed in FY 2012
            (11-EMCBC-B-01)

         3. Untimely De-Obligation of Stale Undelivered Orders     Closed in FY 2012
            (11-ORO-BUD-01)

Credit Reform/Loan Programs

         4. Policy Approval and Document Management                Closed in FY 2012
            (11-HQ-L-01)

         5. Credit Subsidy Model Errors (11-HQ-L-02)               Closed in FY 2012

Environment, Safety, & Health Compliance

         6. Inaccuracies in the ES&H Liability                     Reissued in FY 2012 – see
            (11-BNL-ESH-01)                                        repeat finding number 1.

Environmental Liabilities

         7. Errors in the Prior Period Environmental Liabilities   Reissued in FY 2012 – see
            for NNSA Sites (10-NS9-EL-01)                          repeat finding number 2.

         8. Omission of Prior Year Actual Costs                    Closed in FY 2012
            (11-RL-EL-01)

         9. Risk Register Documentation (11-HQ-EL-01)              Reissued in FY 2012 – see
                                                                   repeat finding number 3.

         10. Error in the Prior Period West Valley Environmental   Closed in FY 2012
             Liability (11-HQ-EL-02)

         11. Miscalculation of the EM Program Direction            Closed in FY 2012
             Estimate (11-HQ-EL-03)

Environmental Liabilities for Active Facilities

         12. Inaccuracies in the Active Facilities Data            Closed in FY 2012
             Collection System (11-Y12-AF-01)




                                                    B.1
                                                                                        Exhibit B


Grants

         13. Grant Closeout (09-CH9-GL-01)                         Reissued in FY 2012 – see
                                                                   repeat finding number 4.

Human Resources

         14. Missing Personnel File (11-SNL-P-1)                   Closed in FY 2012

         15. Estimated Pension and Post-Retirement Asset           Closed in FY 2012
             Values (11-KCP-P-01)

         16. Leave Approval Forms (11-HQ-H-01)                     Reissued in FY 2012 – see
                                                                   repeat finding number 5.

Inventory

         17. Error in the Prior Period Stockpile Materials         Closed in FY 2012
             Inventory (11-INL-NM-01)

         18. Inaccuracies in Standard Weapons Costs                Closed in FY 2012
             (11-Y12-NM-01)

Procurement

         19. Incorrect Trading Partner Code (11-XN9-PRO-01)        Reissued in FY 2012 – see
                                                                   repeat finding number 6.

         20. Inaccuracies in the Capitalization of Disbursements   Closed in FY 2012
             (11-INL-PRO-01)

Property, Plant, & Equipment

         21. Property, Plant, and Equipment Capitalization         Reissued in FY 2012 – see
             and Depreciation (11-SNL-F-01)                        repeat finding number 7.

         22. Existence of PP&E (11-NNSA-F-01)                      Closed in FY 2012




                                                    B.2
                                                                                                Exhibit B


Reissued Findings in FY 2012:

Environment, Safety & Health Compliance

Repeat Finding 1:       Inaccuracies in the ES&H Liability (11-BNL-ESH-01)

In FY 2011, we noted four errors in the Brookhaven National Laboratory (BNL) Environment, Safety, &
Health (ES&H) liability. As a result of these errors, BNL’s ES&H liability was understated by $8.6
million as of September 30, 2010 and $2.3 million as of September 30, 2011. We recommended that the
Manager, Brookhaven Site Office, direct BNL to develop and implement internal controls to ensure that
transactions and adjustments affecting BNL’s ES&H liability are accurately recorded and that estimates
included in the liability are valid and adequately supported.

Our follow-up in FY 2012 found that BNL had not fully implemented all corrective actions. Specifically,
we found that BNL had implemented a management review of supporting detail for the June 30, 2012 and
September 30, 2012 BNL ES&H liability and implemented a reconciliation between the supporting detail
and total reported liability. However, we noted that BNL had not yet completed its review of the ES&H
project estimates. BNL plans to complete this review to ensure that accurate liability estimates are
recorded and appropriate supporting documentation exists by February 2013. Therefore, this finding
remains open.

Recommendation:

1. We continue to recommend that the Manager, Brookhaven Site Office, direct BNL to develop a
    procedure for the third and fourth quarter to review and affirm that the site’s ES&H estimates are an
    accurate reflection of costs for planned corrective actions and are supported by adequate
    documentation.

Management Reaction:

Management concurs with the recommendation. Management will request that Brookhaven Science
Associates, the M&O contractor at BNL, develop and implement a procedure for the third and fourth
quarter to review and affirm that the estimates are an accurate reflection of costs for planned corrective
actions and are supported by adequate documentation.

Environmental Liabilities

Repeat Finding 2:       Errors in the Prior Period Environmental Liabilities for NNSA Sites
                        (10-NS9-EL-01)

During the FY 2010 audit, we reported that NNSA recorded adjustments to its environmental liability
estimates totaling approximately $2.34 billion (absolute value) as a result of significant changes that
occurred during FY 2009. During the FY 2011 audit, we reported that NNSA recorded adjustments to its
environmental liability estimates totaling approximately $91.8 million (absolute value) as a result of
significant changes that occurred during FY 2010. We recommended that the NNSA Field CFO, in
conjunction with all NNSA Site Offices, distribute OFCR’s annual guidance and EM’s Standard
Operating Policies and Procedures (SOPP) to appropriate personnel within the NNSA organization in a
timely manner and to ensure that NNSA contractors are appropriately following environmental liability
guidance and applicable accounting standards. Additionally, we recommended that the NNSA Field CFO,
in conjunction with all NNSA Site Offices, develop and implement policies and procedures that clearly



                                                   B.3
                                                                                                  Exhibit B


define the roles and responsibilities at all levels of environmental liabilities estimating and reporting to
provide for appropriate review and monitoring of the various environmental liability estimates.

Our follow-up in FY 2012 indicated that NNSA has implemented corrective actions, including the
distribution of environmental liability guidance to appropriate personnel, and completed its review of the
various environmental liability estimates. However, during the FY 2012 reviews of the various
environmental liability estimates, NNSA identified approximately $280 million (absolute value) of
adjustments that were not recorded in FY 2011. Therefore, this finding remains open.

Recommendation:

2. We continue to recommend that the NNSA Field CFO, in conjunction with all NNSA Site Offices,
    ensure that NNSA contractors are appropriately following environmental liability guidance,
    specifically OFCR's annual guidance and EM's SOPP, and applicable accounting standards and
    develop and implement policies and procedures that clearly define the roles and responsibilities at all
    levels of the environmental liabilities estimating and reporting to provide for appropriate review and
    monitoring of the various environmental liability estimates.

Management Reaction:

Management concurs with the recommendations. Management noted that the NNSA Office of Field
Financial Management (OFFM) does not have oversight responsibilities to carry out environmental
liability policies and procedures that define the roles and responsibilities for the NNSA Site Offices and
M&O contractors. Instead, NNSA OFFM developed and follows its standard operating procedure that
defines its role and responsibility for reviewing, reporting, and monitoring the various environmental
liability estimates. Management noted that the Associate Administrator for Infrastructure and Operations
(NA-00) and the NNSA Site Offices have oversight responsibility to carry out policies and procedures for
estimating, reviewing, reporting, and monitoring the environmental liability estimates. OFFM will
support NA-00, the NNSA Site Office, and M&O contractors in this effort.

Repeat Finding 3:        Risk Register Documentation (11-HQ-EL-01)

During the FY 2011 audit, we reported that the assessed cost and schedule impacts for a number of risks
tested during the audit were based on subject matter expert (SME) analyses. In certain instances, sites did
not maintain supporting documentation for the SME analyses. While the assessment of certain risks
requires significant judgment from SMEs, the basis for the judgments, in some cases, was not clearly
documented or correlated with the estimates for the corresponding activities in the cost and schedule
baselines.

In addition, in FY 2011, EM assigned teams of knowledgeable personnel from Headquarters to review
and provide comments on the risk registers at each site, to help ensure the appropriateness and
reasonableness of risk identification and assessment processes employee. We reported that although the
EM review teams evaluated the sufficiency of the assessments for individual risks, EM did not evaluate
the sufficiency of the contingency provisions calculated based on the project risk registers for projects and
field sites taken as a whole.

Our follow-up in FY 2012 indicated that EM had implemented corrective actions, including the
distribution of the updated environmental liability guidance, which discussed the need to have
documentation to adequately support the basis and assumptions for the risks included in the risk registers.
Additionally, we noted improvements in the documentation provided for most risks that were based on
subject matter expert judgment in the FY 2011. In addition, EM’s FY 2012 review of the risk registers at


                                                    B.4
                                                                                                   Exhibit B


the sites evaluated the consistency of similar risks across sites to determine whether the probability of
likelihood and the cost and/or schedule impacts were comparable. However, EM’s FY 2012 review of the
risk registers at the sites did not evaluate the sufficiency of the contingency provision for the projects and
field sites taken as a whole. Therefore, this finding remains open.

Recommendation:

3. We continue to recommend that the Director, Office of Strategic Planning & Analysis, implement
    policies and procedures to enhance the quality and consistency of project risk identification and
    assessment, including evaluating the sufficiency of the contingency provisions for field sites as a
    whole and the consistency of the calculated contingency provisions based on the project risk registers
    across the sites.

Management Reaction:

Management concurs with the recommendation. Management noted that it plans to continue its efforts to
improve risk register documentation, including improving guidance and direction on the sites’ risk
identification and quantification processes with an emphasis on increased consistency, improving the EM
independent project teams’ (IPT) risk register reviews by using more specific review criteria focused on
consistency by mission area, and identifying ways to make risk documentation from sites more readily
available between risk managers and IPTs across the EM program. In addition, management plans to
conduct a quantitative analysis of the probabilities and impacts of similar risks across the sites and on the
amounts of contingency recorded by the sites. Finally, management plans to expand the annual
environmental liability training provided by OFCR to include risk based contingencies support and
documentation.

Grants

Repeat Finding 4:        Grant Closeout (09-CH9-GL-01)

In each of the FY 2009, 2010, and 2011 audits, we identified one or more grants that had not been closed
out timely by the Chicago Office. The Chicago Office has since closed out those grants.

In FY 2012, our review of a randomly selected sample of 13 American Recovery and Reinvestment Act
(ARRA) and 12 non-ARRA grants did not identify any additional instances where grants had expired
over 3 years ago. However, the Chicago Office has confirmed that the issue still exists and that there are
grants that expired over three years ago, which have not yet been closed out. Therefore, this finding
remains open.

Recommendation:

4. We continue to recommend that the Manager, Chicago Office, direct the Assistant Manager, Office of
   Acquisition and Assistance (ACQ), to implement policies and procedures to ensure that grant files are
   closed in the required time period after receipt of the final expenditure report.

Management Reaction:

Management concurs with the recommendation. Management noted that timely closeout of awards
remains an office priority. Management further noted that it has made significant progress in this area
and has reduced the number of awards in closeout status by 33% from April 2011 to April 2012.
Management noted that it has recently revised the closeout plan to utilize Headquarters and local support


                                                     B.5
                                                                                                 Exhibit B


service contractors to assist with closeout services and has reorganized ACQ in order to establish a team
dedicated solely to the closeout of expired awards. ACQ has also developed enhanced workload
management reports, which will make it easier for staff to manage their closeout workloads and for
management to monitor closeout progress. Based upon these corrective actions, management expects that
the necessary corrective actions will be completed on or about September 30, 2014.

Human Resources

Repeat Finding 5:       Leave Approval Forms (11-HQ-H-01)

In FY 2011, our review of 51 payroll disbursements identified five disbursements where the Department
was unable to provide evidence of a completed Office of Personnel Management (OPM) Form 71,
Request for Leave or Approved Absence, or another acceptable method of approval. As a result of these
errors, we recommended that the Director, Office of Human Capital Management (HCM), in coordination
with the payroll staff, revise DOE Order 322.1C, Pay and Leave Administration and Hours of Duty,
Section 4.d.3.d to ensure consistent application across the Department. Additionally, we recommended
that the Director, Human Capital Policy Division, reinforce the requirements of DOE Order 322.1C,
Section 4.d.3.d.

Our follow-up in FY 2012 found that HCM had properly revised DOE Order 322.1C, Section 4.d.3.d to
ensure consistent application across the Department. However, our review of 25 payroll disbursements
for the nine months ended June 30, 2012 identified two disbursements where the Department was unable
to provide evidence of a completed OPM Form 71 or other acceptable method of approval. Therefore,
this finding remains open.

Recommendation:

5. We continue to recommend that the Director, Human Capital Policy Division reinforce DOE Order
    322.1C Section 4.d.(3)(d), as revised, through:

    a. Reviewing all alternative methods approved by Departmental elements; and

    b. Reviewing the training provided to supervisors on this subject to ensure that each organizational
       unit is aware that leave approvals must be completed and approved each time an employee
       requests leave exceeding one hour.

Management Reaction:

Management concurs with the recommendation. Management noted that when DOE Order 322.1C is
revised, the Department will incorporate the requirement to exclusively use an authorized time and
attendance system to electronically record the timely approval of an employee's absences for more than 1
hour. In the interim, the Office of the Chief Human Capital Officer will issue a memorandum to Heads of
Departmental Elementals, Resource Directors, and Human Resource Directors reminding them of the
requirements and proper procedures for leave approval. Management noted that the current "Supervisory
Essentials Training Program" for supervisors and managers includes a module on time and attendance
that covers the supervisor's role and responsibility and all reporting requirements for time and attendance.
HCM will ensure this module is continued in any future updates to the training program.




                                                      B.6
                                                                                                 Exhibit B


Procurement

Repeat Finding 6:       Incorrect Trading Partner Code (11-XN9-PRO-01)

In FY 2011, our review of a sample of 95 disbursements from the period October 1, 2010 through April
30, 2011 identified one invoice that was coded to the incorrect trading partner code. As a result of this
error, we recommended that the Director, OFA, direct OFCR personnel to evaluate the adequacy of the
annual trading partner review procedures in place to ensure that the control effectively mitigates the risk
of material misstatements in trading partner balances.

Our follow-up in FY 2012 found that OFCR had not completed the corrective actions to the referenced
finding. OFCR plans to complete their OMB Circular No. A-123 internal control evaluation and testing of
key controls that mitigate the risks of material misstatements due to supplier record trading partner errors
by December 31, 2012. Therefore, this finding remains open.

Recommendation:

6. We continue to recommend that the Director, OFA, direct OFCR personnel to evaluate the
   adequacy of the annual trading partner review procedures in place to ensure that the control
   effectively mitigates the risk of material misstatements of trading partner balances.

Management Reaction:

Management concurs with the recommendation. Management noted that the Department’s evaluation of
internal controls over the accuracy of trading partner information associated with supplier records is
scheduled for completion in FY 2013. Additionally, management noted that its year-end review of FY
2012 intragovernmental costs identified no significant issues regarding supplier records.

Property, Plant, & Equipment

Repeat Finding 7:       Property, Plant, and Equipment Capitalization and Depreciation (11-SNL-F-01)

In FY 2011, our review of a randomly selected sample of 30 asset additions at the Sandia National
Laboratories (SNL) identified six assets that were not capitalized by SNL during the proper fiscal year
based upon the asset’s in-service date.

In FY 2012, our review of a randomly selected sample of 25 asset additions identified 16 assets that were
not capitalized by SNL during the proper fiscal year. Rather, these assets were capitalized at a later date
using the correct placed-in-service date. Therefore, this finding remains open.

Recommendation:

7. We continue to recommend the NNSA Field CFO, in conjunction with the Manager, Sandia Site
    Office, enhance existing policies and procedures to ensure the timely recording of capitalized assets.

Management Reaction:

Management concurs with the recommendation. Management noted that it has approved a schedule to
have the backlog completed during FY 2013. Additionally, management noted that procedures have been
updated to ensure the timely recording of capitalized assets.



                                                    B.7
                                                                                Exhibit C


                                ACRONYMS

ACQ                 Office of Acquisition and Assistance
AFDCS               Active Facilities Data Collection System
AFR                 Agency Financial Report
ARRA                American Recovery and Reinvestment Act
BEA                 Battelle Energy Alliance, LLC
BMPC                Bechtel Marine Propulsion Corporation
BNL                 Brookhaven National Laboratory
CAP                 Corrective Action Plan
CFO                 Chief Financial Officer
Department or DOE   Department of Energy
DIMS                Departmental Inventory Management System
EFASC               Energy Finance and Accounting Service Center
EM                  Office of Environmental Management
ES&H                Environment, Safety, and Health
Fermilab            Fermi National Accelerator Laboratory
FIPP                Financial Institution Partnership Program
FMS                 Financial Management Service
FSO                 Fermi Site Office
FY                  Fiscal Year
GFRS                Governmentwide Financial Report System
HCM                 Office of Human Capital Management
INL                 Idaho National Laboratory
IPABS               Integrated Planning, Accountability, and Budgeting System
IPT                 Independent Project Team
IT                  Information Technology
LANL                Los Alamos National Laboratory
LASO                Los Alamos Site Office
LBNL                Lawrence Berkeley National Laboratory
LM                  Office of Legacy Management
LPO                 Loan Programs Office
LTS                 Long-Term Stewardship
LTS&M               Long-Term Surveillance and Maintenance
MT                  Metric Tons
M&O                 Management and Operating
NNSA                National Nuclear Security Administration
NRLFO               Naval Reactors Laboratory Field Office
OFA                 Office of Finance and Accounting
OFFM                Office of Field Financial Management
OFCR                Office of Financial Control and Reporting
OMB                 Office of Management and Budget
OPM                 Office of Personnel Management
PCS                 Permanent Change of Station
PO                  Purchase Order
PP&E                Property, Plant, and Equipment
PRB                 Post-Retirement Benefits other than Pensions
SGL                 Standard General Ledger
SME                 Subject Matter Expert
SOPP                Standard Operating Policies and Procedures
SNL                 Sandia National Laboratories

                                     C.1
                                                           Exhibit C


STARS   Standard Accounting and Reporting System
UCOP    University of California Office of the President
UDO     Undelivered Order
Y-12    Y-12 National Security Complex




                          C.2
                                                                  IG Report No. OAS-FS-13-08

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
